                 OFFICE OF INSPECTOR GENERAL

                                                         Catalyst for Improving the Environment


  Audit Report




               New Mexico Environment Department
               Costs Claimed Under Cooperative
               Agreement No. V986338-01


               Report No. 2004-4-00015

               March 31, 2004




This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The report represents the opinion of the OIG,
and findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.
Report Contributors:                     Keith Reichard
                                         Les Partridge




Abbreviations
CFR             Code of Federal Regulations
EPA             Environmental Protection Agency
OIG             Office of Inspector General
OMB             Office of Management and Budget
State           New Mexico Environment Department
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WAS HINGTON, D.C. 20460



                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 31, 2004


MEMORANDUM


SUBJECT:       Report No. 2004-4-00015
               New Mexico Environment Department - Costs Claimed Under Cooperative
               Agreement No. V986338-01

               /s/ Michael A. Rickey
FROM:          Michael A. Rickey
               Director, Assistance Agreement Audits

TO:            Richard Greene
               Regional Administrator
               Region 6

We have examined the costs claimed by the New Mexico Environment Department (State) under
Environmental Protection Agency (EPA) cooperative agreement No. V986338-01. This
cooperative agreement was awarded under the provisions of the Comprehensive Environmental
Response, Compensation and Liability Act of 1980 as amended by the Superfund Amendments
and Reauthorization Act of 1986. The multi-project cooperative Agreement supports both multi-
site and core activities of the State Superfund Oversight Section, Voluntary Remedial Program,
and Grants and Planning Section.

We questioned $11,588 of the total Federal share claimed of $2,919,205 as ineligible, because
the State did not fully match its 10-percent cost sharing requirements for its core program
activities. Also, the State did not submit timely and complete financial status reports as required
by the regulations and the terms of the cooperative agreement.

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. The report represents the opinion of
the OIG, and findings contained in this report do not necessarily represent the final EPA position.
The OIG has no objection to the release of this report to any member of the public upon request.

On February 13, 2004, we issued a draft report to the State for comments. On March 23, 2004,
the State provided comments on the draft report, and agreed with all findings and
recommendations.
Action Required

In accordance with EPA Manual 2750, EPA is required to provide this office with a
proposed management decision specifying the Agency’s position on all findings and
recommendations in this report. The draft management decision is due within 120 days of the
date of this transmittal memorandum.

If you have questions concerning this report, please contact Keith Reichard, assignment manager,
at (312) 886-3045.




                                               2
                                   Table of Contents
Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



 Appendices
         A         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

         B         State’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         C         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13




                                                             i
                       Independent Auditor’s Report
We have examined the total outlays reported by the New Mexico Environment Department
(State) under the Environmental Protection Agency (EPA) cooperative agreement
No. V986338-01, as shown below:

                             Financial Status R eports
                                                       Cumulative
                    Date              Period          Total Outlays
                  Submitted           Ending            Claimed           Federal S hare

                   06/05/02*          9/30/01             $1,446,917         $1,446,917

                  12/02/02**          9/30/02             $1,472,289         $1,472,289

                                                          $2,919,206         $2,919,206


               *  Included all sites except the No rth Railroad Avenue and Fruit Avenue sites.
               ** Included only the No rth Railroad Avenue and Fruit Avenue sites.


The State certified that the outlays reported on the Financial Status Reports (Standard Form
269A) were correct and for the purposes set forth in the cooperative agreement. The preparation
and certification of the claim was the responsibility of the State. Our responsibility is to express
an opinion on the claim based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We examined, on a test
basis, evidence supporting the reported outlays, and performed such other procedures as we
considered necessary in the circumstances (see Appendix A for details). We believe that our
examination provides a reasonable basis for our opinion.

In our opinion, except for the outlays questioned (see Results of Audit), the reported outlays on
the Financial Status Reports present fairly, in all material respects, the allowable outlays incurred
in accordance with the criteria set forth in the cooperative agreement. We also found one area of
regulatory noncompliance during our examination. The following sections provide details on our
examination.


                                                                    /s/ Keith Reichard
                                                                    Keith Reichard
                                                                    Assignment Manager
                                                                    Field Work End: December 31, 2003




                                                      1
2
                                               Background
On September 15, 1999, EPA awarded Cooperative Agreement Number V986338-01 to the
State. The following table provides some basic information about the authorized project period
and the funds awarded under the cooperative agreement covered by this audit.

            Cooperative              EPA              Loca l            Tota l                  Project
           Agreement No.            Share *           Share             Costs                   Period

            V986338-01            $3,623,095         $41,468         $3,664,563       10/01/99 - 09/30/03


       *   The EP A share wa s 90 perc ent of total costs fo r the Cimarr on site and S tate’s core ac tivities.
           For all other sites the EPA share was 1 00 perc ent of total cost.


This cooperative agreement was authorized under Section 104 of the Comprehensive
Environmental Response, Compensation and Liability Act to provide financial support for:
(1) pre-remedial activities, including pre-screening, preliminary assessments, site inspections,
integrated assessments, expanded site inspections, and preparation of National Priority List
packages; (2) EPA-lead management assistance activities, including preparation and review of
remedial inspections/feasibility studies, records of decision, remedial design/remedial action, and
closure documents; (3) State-lead activities for Fruit Avenue and North Railroad Avenue plume
sites; (4) voluntary remediation activities, including the development of refined risk-based
cleanup standards, and targeted brownfields assessments; and (5) core program activities such as
administrative, non site-specific activities, legal services, record keeping and reporting services,
and clerical support.

To assist the reader in obtaining an understanding of the report, key terms are defined below:


       Reported Outlays:                       Program expenses or disbursements identified by the State
                                               on the Financial Status Report (Standard Form 269A).

       Questioned Outlays:                     Outlays that are: (1) contrary to a provision of a law,
                                               regulation, agreement, or other documents governing the
                                               expenditure of funds; (2) not supported by adequate
                                               documentation; or (3) not approved by a responsible agency
                                               official.




                                                             3
4
                                   Results of Audit
Summary of Questioned Outlays

    As noted in the following table, we questioned $11,588 claimed under the cooperative
    agreement as unallowable.

                                                 Unreported                 Questioned
                                    Reported     State Match     Total       Outlays
              Category/Sites         Outlays       (Note 1)     Outlays      (Note 2)

         Core Program Activities     $368,645        $28,085    $396,730       $11,588

         Cimarron Site                 $4,661         $1,154      $5,815            $0

         All Other Sites            $2,545,900           $0    $2,545,900           $0

               Totals               $2,919,206       $29,239   $2,948,445      $11,590



    Note 1:     The State did not report its cost share or match in the financial status reports.
                The cooperative agreement required the State to match 10 percent of the total
                costs for the Cimarron site and the State’s core activities. The State did
                provide documentation to support a portion of its match. Accordingly, for
                reporting purposes, we have included the documented State match in the
                columns entitled “Unreported State Match” and “Total Outlays.”

    Note 2:     The State did not fully match its 10 percent costs sharing requirements for its
                core program activities under the cooperative agreement. As a result, the State
                overdrew the Federal Share by $11,588 [$368,645 - ($396,730 x 90%)].

    State’s Response

    The State agreed with the findings and the need for: (1) EPA to recover the $11,588 of
    excess Federal outlays claimed for core program activities, and (2) the State to report its
    costs sharing or match in all future financial status reports.

Regulatory Noncompliance

    The State did not submit timely and complete financial status reports as required by the
    cooperative agreement and Federal regulations. The EPA’s project officer was also
    concerned with the untimely submission of the financial status reports, and was unable to
    get the State to submit timely reports after repeated written and verbal attempts to obtain
    the reports timely. The provisions of 40 CFR 31.41 and the special conditions of the
    cooperative agreement required the State to submit quarterly progress reports within
    30 days of the end of each Federal fiscal quarter. During the period covered by our audit,


                                                 5
the State submitted 10 of the 12 quarterly financial status reports that were due.
However, only one report was submitted timely.

In addition, none of the financial status reports included the State’s match as discussed
above in Note 1. In addition, some of the financial status reports did not include financial
information by site as required by 40 CFR 35.6670.

As a result, Region 6 did not have sufficient information to make an assessment of the
State’s progress in meeting the cooperative agreement’s objectives, or determine whether
the unexpended funds were adequate to complete all work required.

State’s Response

The State agreed with the finding and has added one more staff person to the Grants
Section in hopes of rectifying some of the issues.




                                         6
                             Recommendations
We recommend that EPA Region 6:

      1.    Recover $11,588 of excess Federal outlays claimed for core program activities.

      2.    Require the State to report its costs sharing or match in all future financial status
            reports.

      3.    Continue to closely monitor the State’s submission of quarterly financial status
            reports to ensure that the reports are complete and submitted timely. If the State
            continues to submit incomplete and untimely financial status reports, we
            recommend that Region 6 temporarily withhold cash payments pending the
            correction of the deficiencies by the State.




                                               7
8
                                                                                    Appendix A

                           Scope and Methodology

We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the Office of Inspector General Audit Process Handbook, dated
November 5, 2002.

We conducted this examination to express an opinion on the financial status reports, and
determine whether the State was managing its EPA cooperative agreement in accordance with
applicable requirements. To meet these objectives, we asked the following questions:

       1.      Is the State’s accounting system adequate to account for cooperative agreement
               funds in accordance with 40 CFR 35.6279?

       2.      Does the State maintain an adequate labor distribution system that conforms with
               requirements of Office of Management and Budget (OMB) Circular A-87?

       3.      Is the State properly drawing down cooperative agreement funds in accordance
               with 40 CFR 31.21?

       4.      Do the State’s procurement procedures for contractual services comply with
               40 CFR 35.6550?

       5.     Is the State complying with its reporting requirements under 40 CFR 31.41 and
              35.6650?

       6.     Are the costs claimed/incurred under the cooperative agreement adequately
              supported and eligible for reimbursement under the terms and conditions of the
              cooperative agreement, OMB Circular A-87, and applicable regulations?

       7.     Is the State meeting its matching or cost sharing requirements under 40 CFR
              35.6235?

 In conducting our examination, we reviewed the project files and obtained the necessary
 cooperative agreement information for our examination. We interviewed the project officer and
 the grants specialist to determine whether they had any concerns that needed to be addressed
 during our examination. We also interviewed State personnel to obtain an understanding of the
 accounting system and the applicable internal controls. We obtained and reviewed the single
 audit reports to determine whether there were any reportable conditions and recommendations
 addressed in those reports.


                                                9
We reviewed management’s internal controls and procedures specifically related to our
objectives. Our examination included reviewing the State’s compliance with OMB Circular
A-87; Title 40 CFR Part 31; Title 31 CFR Part 205, and the terms and conditions of the
cooperative agreement. We also examined the reported costs on a test basis to determine
whether the costs were adequately supported and allowable under the terms and conditions of
the cooperative agreement, OMB Circular A-87, Title 31 CFR Part 205, and applicable
regulations. We conducted our field work from April 5, 2003, to December 31, 2003.

After gaining an understanding of the State’s financial management system, we reconciled the
claimed costs with the State’s general ledger. Based on our judgment, we reviewed selected
transactions to determine whether the costs were allowable. For personnel and fringe benefits,
we reviewed costs from all projects. For all other direct costs, we tested transactions on a
judgmental basis. In total, we tested 17.94 percent of the reported costs.




                                              10
                                                                                                        Appendix B

                                          State’s Response


                                                   March 23, 2004



Mr. Michael A. Rickey, Director
Assistance Agreements Audits
US Environmental Protection Agency
Office of Inspector General
Washington, D.C. 20460

Dear Mr. Rickey,

Below please find the New Mexico Environment Department’s responses to
your audit report of February 13,2004. I appreciate the time and effort by
your staff and look forward to rectifying our deficiencies as noted within the
report. Additionally, I look to these types of audits as a management tool
given that this new administration is working hard on raising the bar on grants
administration and fiscal practices throughout the department.

Our responses are as follows:


Recommendations:
   1.   Recover $11,588 of excess federal outlays claimed for core program activities:
        NMED concurs with this recommendation. Staff whose salary is paid by general fund
        allocate in-kind match to meet the state share when their work is a legitimate and
        allowable charge to Superfund. These allocations are documented on time sheets and
        recorded in NMED labor-financial control systems. Audit of these staff time sheets will be
        increased. Match was also incorrectly calculated based upon the federal grant share
        considered as 90% of costs and 10% of that required as the state share match. Instead
        ma tch n eed s to b e m ade on to tal co sts in clus ive of state in-kin d m atch cos ts, es sen tially
        match on the federal share plus match on the match or about 11.2% match. Errors made
        in calculation s of indirec t terms have be en rectified .

   2.   Require the State to report its costs sharing or match in all future financial status
        reports: This reco mm end ation has b een adop ted a nd im plem ente d by N ME D rec ently.
        This requirement was not previously known to NMED until the audit by the Office of
        Inspector General this year. Com pleting the reports as required will also act as a self-
        informing way to assure that match is documented and sufficient to meet grant terms.


                                                     11
    3.   Continue to closely monitor the State’s submission of quarterly financial status
         reports to ensu re that the reports are co mplete and submitted tim ely. If the State
         contin ues to subm it incom plete an d untim ely finan cial statu s repo rts, we
         recommend that Region 6 temporarily withhold cash payments pending the
         correction of the de ficiencies by the State: NMED will work to its best abilities to make
         timely reports as required by EPA Superfund grant terms. The Department has added
         one more staff person to the Grants Section in hopes of rectifying some of these issues.




Should you have any questions and/or require additional information, please contact me at
(505)476-3728.




Sinc erely,

Rick Martinez

Rick Martinez, Director
Administrative Services Division




                                                     12
                                                                              Appendix C

                                      Distribution
Region 6

      Regional Administrator (Action Official)
       (responsible for report distribution to recipient.)
      Director, Superfund Division (6SF)
      Audit Coordinator (6MD RC)

Headquarters

      Director, Grants Administration Division (3903R)
      Agency Followup Official (the CFO) (2710A)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Associate Administrator for Public Affairs (1101A)
      Comptroller (2731A)
      Depute Chief Financial Officer (2710A)

Office of Inspector General

      Inspector General (2410)




                                               13
